Nos. 20-512 and 20-520
IN THE

Supreme Court of the United States
_______________
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, et al.,
Respondents.
_______________
AMERICAN ATHLETIC CONFERENCE, et al.,
Petitioners,
v.
SHAWNE ALSTON, et al.,
Respondents.
_______________
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit

_______________

BRIEF OF PROFESSOR THOMAS B. NACHBAR AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS

_______________
THOMAS B. NACHBAR
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
580 Massie Road
Charlottesville, VA 22903
(434) 924-7588
tnachbar@law.virginia.edu
Counsel for Amicus Curiae
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED
Amicus will address the following question:
Whether the Ninth Circuit’s use of a less
restrictive alternatives test as part of a three-step rule
of reason framework misapplies this Court’s antitrust
jurisprudence.

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED...........................................i
TABLE OF AUTHORITIES ....................................... iv
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF ARGUMENT ..................................... 1
ARGUMENT ............................................................... 4
I.

The less restrictive alternatives test is not a
distinct step in antitrust rule of reason
analysis ................................................................ 4
A.

The Ninth Circuit’s three-step framework
and the less restrictive alternatives test ..... 4

B.

This Court has never adopted a less
restrictive alternatives test.......................... 8
1.

This Court’s reference to less
restrictive alternatives in American
Express is dicta ..................................... 8

2.

This Court has never applied a less
restrictive alternatives test in previous
rule of reason cases even when
alternatives were clearly presented ..... 9

3.

This Court has previously rejected the
less restrictive alternatives test in the
context of a vertical restraint ............. 10

C.

This Court’s consideration of
alternatives ................................................. 11

D.

Alternatives in the ancillary restraints
doctrine ....................................................... 14

iii
TABLE OF CONTENTS—continued
Page
II.

The Ninth Circuit’s less restrictive alternatives
test results in misapplication of both the rule of
reason and the ancillary restraints doctrine .... 17
A.

The less restrictive alternatives test
preempts rule of reason balancing,
potentially condemning business practices
that enhance competition........................... 18

B.

The less restrictive alternatives test
replicates and exacerbates the problems
of rule of reason balancing ......................... 19

C.

The incremental and progressively
restrictive nature of the less restrictive
alternatives test sets an impossible
standard of reasonableness,
as demonstrated by the remedy in
this case ...................................................... 21

D.

The less restrictive alternatives test
transforms courts into regulators and
chills innovation ......................................... 26

E.

The less restrictive alternatives test causes
errors in ancillary restraints analysis ....... 30

CONCLUSION .......................................................... 32

iv
TABLE OF AUTHORITIES
Page(s)
Cases
American Needle, Inc. v. National Football League,
560 U.S. 183 (2010) ...........................................4-5
Board of Trade of the City of Chicago v.
United States, 246 U.S. 231 (1918) ..................3-5
Broadcast Music, Inc. v. Columbia Broadcasting
System, Inc., 441 U.S. 1 (1979) .....................15-16
Business Electronics Corp. v. Sharp Electronics
Corp., 485 U.S. 717 (1988) ................................. 15
California Dental Association v. FTC,
526 U.S. 756 (1999) ........................... 5, 10, 19, 29
Capital Imaging Associates, P.C. v. Mohawk Valley
Medical Associates, Inc.,
996 F.2d 537 (2d Cir. 1993) ................................. 9
Continental TV, Inc. v. GTE Sylvania Inc.,
433 U.S. 36 (1977) ............................... 2, 10-11, 18
County of Tuolumne v. Sonora County. Hospital,
236 F.3d 1148 (9th Cir. 2001) ............................ 23
FTC v. Actavis, Inc., 570 U.S. 136 (2013) ................... 5
FTC v. Qualcomm, Inc.,
969 F.3d 974 (9th Cir. 2020) ............................. 30
In re NCAA Athletic Grant-in-Aid Cap Antitrust
Litigation, 958 F.3d 1239
(9th Cir. 2020) ............................................ passim
In re NCAA Athletic Grant-in-Aid Cap Antitrust
Litigation, 375 F. Supp. 3d 1058
(N.D. Cal. 2019) ......................................... passim

v
TABLE OF AUTHORITIES—CONT’D
Page(s)

Leegin Creative Leather Products, Inc. v. PSKS, Inc.,
551 U.S. 877 (2007) ............................................ 18
NCAA v. Board of Regents of University of
Oklahoma, 468 U.S. 85 (1984)........ 1, 4, 12-15, 17
National Football League v. North American
Soccer League, 459 U.S. 1074 (1982)................. 11
National Society of Professional Engineers v.
United States, 435 U.S. 679 (1978) ................... 18
O’Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2016) ...................4, 23-25
Ohio v. American Express Co.,
138 S. Ct. 2274 (2018) ...................................2, 7-9
Polk Brothers, Inc. v. Forest City Enterprises, Inc.,
776 F.2d 185 (7th Cir. 1985) .........................15-16
Texaco, Inc. v. Dagher, 547 U.S. 1 (2006) ............15-16
United States v. Addyston Pipe & Steel Co., 85 F. 271
(6th Cir. 1898), aff’d Addyston Pipe & Steel Co.
v. United States, 175 U.S. 211 (1899) ......2, 15-16
United States v. Topco Associates, Inc.,
405 U.S. 596, 608 (1972) .................................... 15
Verizon Communications, Inc. v. Law Offices of
Curtis V. Trinko, LLP,
540 U.S. 398 (2004) .....................................2-3, 28
White Motor Co. v. United States,
372 U.S. 253 (1963) ...................................... 11, 15

vi
TABLE OF AUTHORITIES—CONT’D
Page(s)

Statutory Provisions
5 U.S.C. § 1 ............................................................ 4, 30
5 U.S.C. § 2 ................................................................ 30
Other Authorities
Phillip E. Areeda and Herbert Hovenkamp, Antitrust
Law (4th ed. 2016) .................5, 7-9, 16-17, 19, 22
Phillip E. Areeda & Herbert Hovenkamp,
Fundamentals of Antitrust Law (2020)............. 23
Thomas C. Arthur, A Workable Rule of Reason:
A Less Ambitious Antitrust Role for the Federal
Courts, 68 Antitrust L.J. 337 (2000) ................. 24
Robert H. Bork, The Antitrust Paradox:
A Policy at War with Itself (1978) ..................... 15
Michael A. Carrier, The Real Rule of Reason:
Bridging the Disconnect,
1999 BYU L. Rev. 1265...................................... 24
Alan Devlin, Antitrust as Regulation,
49 San Diego L. Rev. 823 (2012) ...... 19, 24, 28-29
Frank H. Easterbrook, The Limits of Antitrust,
63 Tex. L. Rev. 1 (1984) ............................... 21, 30
Gabriel A. Feldman, Misuse of the Less Restrictive
Alternative Inquiry in Rule of Reason Analysis,
58 Am. U.L. Rev. 561 (2009).............................. 20

vii
TABLE OF AUTHORITIES—CONT’D
Page(s)

C. Scott Hemphill, Less Restrictive Alternatives
in Antitrust Law,
116 Colum. L. Rev. 927 (2016) ......... 12, 19-20, 22
Herbert Hovenkamp, Antitrust Balancing,
12 N.Y.U. J.L. & Bus. 369 (2016) ...................... 12
Herbert Hovenkamp, The Rule of Reason,
70 Fla. L. Rev. 81 (2018) .............................. 14, 20
Julian von Kalinowski, Antitrust Laws and Trade
Regulation (2d ed. 2017) ...................................... 9
Thomas B. Nachbar, Less Restrictive Alternatives
and the Ancillary Restraints Doctrine
(Feb. 2, 2021 draft),
https://tinyurl.com/6lqo5hr7 ...................... passim
Thomas B. Nachbar, Rational Basis “Plus,”
32 Const. Comm. 449 (2017).............................. 22
Thomas B. Nachbar, The Rationality of Rational
Basis Review,
102 Va. L. Rev. 1627 (2016) ............................... 22

INTEREST OF AMICUS CURIAE



Thomas Nachbar is a Professor of Law at the
University of Virginia School of Law. He teaches and
writes on antitrust law, constitutional law, contracts,
communications law, and national security law, and
he has an interest in the sound development of these
fields.
SUMMARY OF ARGUMENT
Although this case presents difficult and complex
questions of both the NCAA’s unique position, see
NCAA v. Board of Regents of University of Oklahoma,
468 U.S. 85 (1984) (Board of Regents), and the specific
restrictions at issue in this case, it is unnecessary for
this Court to reach either of those questions because
the courts below applied the wrong legal standard.
This Court should reverse and remand for correct
application of the rule of reason, as previously
described in this Court’s antitrust jurisprudence.
Applying antitrust’s rule of reason, the district
court and the court of appeals subjected the
 The parties have filed with the Clerk blanket consents to the
filing of amicus briefs. No party’s counsel authored this brief in
whole or in part, and no counsel or party made a monetary
contribution intended to fund its preparation or submission. The
University of Virginia School of Law provides financial support
for activities related to faculty members’ research and
scholarship, which helped defray the costs of preparing this brief.
(The School is not a signatory to the brief, and the views
expressed here are those of the amicus curiae.) Otherwise, no
person or entity other than the amicus curiae has made a
monetary contribution intended to fund the preparation or
submission of this brief.

2
challenged restraints in this case to a Ninth-Circuitderived “three-step framework” that includes as one
step a distinct, less restrictive alternatives test that
asks whether the procompetitive effects produced by
the restraint could be achieved by some “less
restrictive alternative.” Although mentioned in dicta
in Ohio v. American Express Co., 138 S. Ct. 2274
(2018), this Court has never applied a less restrictive
alternatives test in the rule of reason and has
affirmatively rejected it in cases involving vertical
restraints. See Continental TV, Inc. v. GTE Sylvania
Inc., 433 U.S. 36, 58, n. 29 (1977).
Although this Court has considered alternatives,
it has done so not in the course of applying the rule of
reason but at an earlier stage of analysis: during
evaluation of restraints under the ancillary restraints
doctrine, introduced into antitrust law by United
States v. Addyston Pipe & Steel Co., 85 F. 271 (6th Cir.
1898), aff’d Addyston Pipe & Steel Co. v. United
States, 175 U.S. 211 (1899). The ancillary restraints
doctrine asks whether a restraint is “reasonably
necessary” to a larger, productive transaction. But
even that analysis does not involve comparisons like
the less restrictive alternatives test applied by the
courts below.
As applied in the rule of reason, a less restrictive
alternatives test creates tremendous uncertainty and
sets an impossible bar to defense of antitrust claims,
placing courts in the role of regulators who are
destined to revisit restraints repeatedly over time to
determine whether there is still no “less restrictive
alternative” to the challenged restraint. This Court
has rejected just such a role for courts in antitrust
cases. See Verizon Communications, Inc. v. Law

3
Offices of Curtis V. Trinko, LLP, 540 U.S. 398, 408
(2004). The district court has assumed exactly that
role in this case, setting – to the dollar – the NCAA’s
compensation limits and retaining jurisdiction to
make further revisions (which it has already done).
Such regulatory oversight is not specific to this case
or the NCAA; it is a necessary consequence of the less
restrictive alternatives test itself, the logic of which
requires courts to conduct increasingly fine-grained
analysis into the restrictiveness of restraints until
they identify no less restrictive one. Application of the
test in the rule of reason would chill innovation,
potentially either locking defendants in to the least
restrictive restraint they have ever attempted or,
worse, subjecting them to treble damages for adopting
a restraint that actually enhances competition but
does so in a way more restrictive than some
alternative proposed by antitrust plaintiffs.
The less restrictive alternatives test also induces
error in both the rule of reason and the ancillary
restraints doctrine. The district court made just such
an error in this case, misleading itself into allowing as
to the conferences a restraint for which it had
previously found no procompetitive justification.
Affirming the Ninth Circuit’s less restrictive
alternatives test would effectively abandon the
approach to the rule of reason that this Court has
followed since Board of Trade of the City of Chicago v.
United States, 246 U.S. 231 (1918), and lead to courts
preemptively striking restraints that, on balance,
enhance rather than harm competition. This Court
should reverse and remand the case to the lower court
for correct application of the rule of reason as laid out
in this Court’s cases.

4
ARGUMENT
I.

The less restrictive alternatives test is not a
distinct step in antitrust rule of reason
analysis
A.

The
Ninth
Circuit’s
three-step
framework and the less restrictive
alternatives test

This case stems from a challenge under the
antitrust laws brought by student-athletes against
the NCAA’s compensation rules, which limit the
amount and types of compensation that students can
receive for their participation in school athletic
programs. In re NCAA Athletic Grant-in-Aid Cap
Antitrust Litigation, 375 F. Supp. 3d 1058, 1062 (N.D.
Cal. 2019). Following NCAA v. Board of Regents of
University of Oklahoma, 468 U.S. 85, 100 (1984)
(Board of Regents) and an earlier Ninth Circuit case
on NCAA compensation rules, O’Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2016), the district court
analyzed the compensation rules under antitrust’s
“rule of reason,” In re NCAA, 375 F. Supp. 3d at 1096,
striking the rules as violations of section 1 of the
Sherman Act, 15 U.S.C. § 1. In re NCAA, 375 F. Supp.
3d at 1109.
Under the rule of reason, which has been a staple
of antitrust analysis since Board of Trade of the City
of Chicago v. United States, 246 U.S. 231 (1918)
(Chicago Board of Trade), a court asks whether the
anticompetitive effects of a restraint outweigh its
procompetitive benefits. Although the rule of reason
has developed over time, its core has remained
constant since Chicago Board of Trade. See American
Needle, Inc. v. National Football League, 560 U.S. 183,

5
203, n. 10 (2010) (citing Chicago Board of Trade);
Phillip E. Areeda and Herbert Hovenkamp, Antitrust
Law ¶ 1502 (4th ed. 2016) (same). Put succinctly by
Justice Breyer in California Dental Association v.
FTC, the rule of reason asks: “(1) What is the specific
restraint at issue? (2) What are its likely
anticompetitive effects? (3) Are there offsetting
procompetitive justifications? (4) Do the parties have
sufficient market power to make a difference?”
California Dental Association v. FTC, 526 U.S. 756,
782 (1999) (Breyer, J., concurring and dissenting)
(CDA). See also id. at 791 (under Chicago Board of
Trade, “[t]he basic question is whether this, or some
other, theoretically redeeming virtue in fact offsets
the restrictions’ anticompetitive effects”).1
In the decision below, the court of appeals applied
a “three-step framework” for applying the rule of
reason, including a distinct less restrictive
alternatives test. As applied in this case, under the
applicable framework:
(1) Student-Athletes “bear[ ] the initial
burden of showing that the restraint
produces significant anticompetitive
effects within a relevant market”; (2) if
they carry that burden, the NCAA “must
come forward with evidence of the
restraint’s procompetitive effects”; and
(3) Student-Athletes “must then show
that any legitimate objectives can be

1 While Justice Breyer’s formulation appeared in a four-Justice
concurrence and dissent, this Court has adopted it as
authoritative. See FTC v. Actavis, Inc., 570 U.S. 136, 156 (2013).

6
achieved in a substantially
restrictive manner.”

less

In re NCAA Athletic Grant-in-Aid Cap Antitrust
Litigation, 958 F.3d 1239, 1256 (9th Cir. 2020). The
court of appeals did not cite any case of this Court for
the three-step framework, relying instead on Ninth
Circuit precedent. See id.
The court of appeals, following the district court,
concluded that the plaintiffs had satisfied the first
step by showing the restraints restricted the market
for student-athletes, a finding the NCAA did not
dispute. The NCAA, however, offered procompetitive
justifications in the second step: that the restrictions
preserve the amateur nature of collegiate sports and
thereby enhance consumer choice. Id. at 1256-57.
The court of appeals, again following the district
court, divided its analysis between two sets of
restrictions: those on “non-cash education-related
benefits” and those on “cash graduation or academic
awards.” Id. at 1251.
The district court condemned the NCAA’s limits
on non-cash education-related benefits because they
could not be confused with a professional athlete’s
salary. In re NCAA, 375 F. Supp. 3d at 1088.
Consequently, the court of appeals concluded, “[t]he
record … reflects no … concrete procompetitive effect
of limiting non-cash education-related benefits,” In re
NCAA, 958 F.3d at 1258, and therefore the NCAA
could not limit non-cash education-related benefits at
all. Id. at 1260. While the district court ruled the
NCAA could not limit such benefits, it upheld, as a
less restrictive alternative to the NCAA’s limits, the

7
ability of individual conferences to do so, In re NCAA,
375 F. Supp. 3d at 1088.
With regard to cash benefits, the district court
recognized that cash awards might be confused with
professional compensation. In re NCAA, 375 F. Supp.
3d at 1088. But it also found that the NCAA had
already permitted cash awards for “athletic
participation” of up to $5,600 per student per year
without a recognizable effect on consumer demand or
the NCAA’s conception of amateurism. Id. (On the
$5,600 amount, see id. at 1072, 1099.) Consequently,
the court concluded that it would be a viable, less
restrictive alternative to allow the NCAA to cap nonathletic “graduation and academic awards” at that
same level but no lower, and no lower than any cap it
might impose now or in the future on athletic
participation awards. Id. at 1087.
The court of appeals affirmed all three less
restrictive alternatives: (1) no NCAA caps of
education-related non-cash benefits, (2) the $5,600-orparity-with-athletic-awards floor on NCAA caps on
graduation and academic cash awards, and (3)
conference regulation of education-related non-cash
benefits, see In re NCAA, 958 F.3d at 1251-52, 1260.
The court of appeals did not cite any of this
Court’s cases for either the three-step framework or
the less restrictive alternatives test. See id. at 1256.
The district court acknowledged that the three-step
framework was missing from this Court’s rule of
reason cases but noted the appearance of a three-step
test in Ohio v. American Express Co., 138 S. Ct. 2274
(2018), and that courts “frequently rely on the
treatises and other writings of Phillip E. Areeda and
Herbert Hovenkamp.” In re NCAA, 375 F. Supp. 3d at

8
1108. As the district court pointed out, the Areeda and
Hovenkamp treatise endorses the use of a less
restrictive alternatives test as “an attempt to avoid
general balancing,” and that balancing should only be
conducted when “no viable less restrictive alternative
has been established.” Id. at 1108 (citing Areeda and
Hovenkamp ¶ 1507d).
B.

This Court has never adopted a less
restrictive alternatives test

The less restrictive alternatives test applied
below is inconsistent with this Court’s antitrust
jurisprudence. Although recently mentioned in dicta,
that mention is not authoritative for a variety of
reasons. The test has never been applied by this
Court, even though it would have been applicable in
many antitrust cases, and this Court has
affirmatively rejected it in cases involving vertical
restraints.
1. This Court’s reference to less
restrictive alternatives in American
Express is dicta
The first mention of either a three-step
framework or a less restrictive alternatives test in this
Court is American Express. In that case this Court did
not consider the question but rather adopted without
comment or analysis a similar approach from the
Second Circuit, from which the American Express case
arose. American Express, 138 S. Ct. at 2284; see also
id. at 2291 (Breyer, J., dissenting). The parties in
American Express had stipulated to the Second
Circuit formulation, id. at 2277, removing it as an
issue in the case. Moreover, the dispute in American
Express, on market definition, pertained only to the

9
first step in the Second Circuit three-step framework,
id. at 2284; id. at 2291 (Breyer, J., dissenting), making
this Court’s reference to the third step irrelevant to
the outcome. See Thomas B. Nachbar, Less Restrictive
Alternatives and the Ancillary Restraints Doctrine 3
(Feb. 2, 2021 draft), https://tinyurl.com/6lqo5hr7. This
Court’s recitation of the three-step framework in
American Express was an acknowledgement, not an
adoption, of the Second Circuit approach. The third
step, containing the less restrictive alternatives test,
was not contested and was irrelevant to the outcome
in American Express, rendering that case’s mention of
the less restrictive alternatives test pure dicta.
2. This Court has never applied a less
restrictive alternatives test in
previous rule of reason cases even
when alternatives were clearly
presented
This Court’s pre-American Express antitrust
jurisprudence offers no authority for the less
restrictive alternatives test. The court of appeals did
not cite any case of this Court for its approach, relying
exclusively on Ninth Circuit precedent. See In re
NCAA, 958 F.3d at 1239. Similarly, this Court in
American Express cited only a single Second Circuit
case and two treatises for that form of the rule of
reason. American Express, 138 S. Ct. at 2284 (citing
Capital Imaging Associates, P.C. v. Mohawk Valley
Medical Associates, Inc., 996 F.2d 537, 543 (2d Cir.
1993); 1 Julian von Kalinowski, Antitrust Laws and
Trade Regulation § 12.02[1] (2d ed. 2017)); id. at 2291
(Breyer, J., dissenting) (citing Areeda and
Hovenkamp ¶ 1507a). Examination of those sources,
too, reveals that they cite none of this Court’s cases for

10
adoption of a distinct less restrictive alternatives test.
The less restrictive alternatives test is entirely a
construct of a few courts of appeal and commentators.
See Nachbar at 6-9. It has never been adopted and
applied by this Court.
The absence of a less restrictive alternatives test
in pre-American Express cases could not be more
stark. In CDA itself, a less restrictive alternative was
discussed, sparking a disagreement on the Court, but
the possibility of applying a less restrictive
alternatives test went unnoticed by both majority and
dissent. CDA concerned a partial ban on advertising
by dentists. CDA, 526 U.S. at 761-61. Although the
Court did distinguish the partial ban from a total one,
id. at 773-74, it did not then apply a less restrictive
alternatives test. Justice Breyer keyed on this aspect
of the majority and criticized it in other ways, see id.
at 773-74, but nevertheless failed to comment on how
the less restrictive alternative might alter the CDA’s
liability. Id. at 790. Only an explicit rejection would
be clearer. The less restrictive alternatives test
occurred to no one – parties, majority, or dissent – in
that, or virtually any other, of this Court’s antitrust
cases.
3. This Court has previously rejected
the less restrictive alternatives test
in the context of a vertical restraint
In addition to the many rule-of-reason cases in
which less restrictive alternatives are simply not
mentioned, this Court affirmatively rejected them in
Continental TV, Inc. v. GTE Sylvania Inc., 433 U.S.
36 (1977). In that case, which dealt with a vertical
restraint (an exclusive dealership), this Court

11
explicitly recognized that there might be a less
restrictive alternative to the restraint and refused to
consider it for the purpose of invalidating the
restraint as a per se violation. Id. 58, n. 29 (“The
location restriction used by Sylvania was neither the
least nor the most restrictive provision that it could
have used.”). This case regards a horizontal restraint,
but the Ninth Circuit three-step framework makes no
distinction between horizontal and vertical restraints.
This Court rejected a less restrictive alternatives test
in Sylvania, but if it allows the Ninth Circuit less
restrictive alternatives test to stand, it would apply
equally in vertical restraint cases like Sylvania.2
C.

This
Court’s
alternatives

consideration

of

This
Court
does
occasionally
consider
alternatives in antitrust cases, but not in a distinct
less restrictive alternatives test. A typical example3 is
Board of Regents. In that case, the Court considered
limitations on the number of football games that
member schools could televise. The NCAA argued that

2 Other than Sylvania, only two separate Justices’ opinions
expressly mention less restrictive alternatives in antitrust.
Justice Brennan endorsed them as “another pertinent inquiry”
in the evaluation of vertical exclusive territories, the restraint
for which they were later rejected in Sylvania. See White Motor
Co. v. United States, 372 U.S. 253, 272 (1963) (Brennan, J.,
concurring). Conversely, then-Justice Rehnquist condemned
them. See National Football League v. North American Soccer
League, 459 U.S. 1074 (1982) (Rehnquist, J., dissenting from
denial of cert.).
3 For a comprehensive discussion of antitrust cases in which this
Court has considered alternatives, see Nachbar at 22-43.

12
the restrictions made the product (“high-quality
college football”) more attractive to fans. The Court
rejected that argument, finding the plan reduced
rather than increased the number of televised football
games, completely undermining the NCAA’s
justification. Board of Regents, 468 U.S. at 119-20.
Some commentators see in the Board of Regents
analysis a form of less restrictive alternatives test.
See, e.g., C. Scott Hemphill, Less Restrictive
Alternatives in Antitrust Law, 116 Colum. L. Rev. 927,
955 (2016); Herbert Hovenkamp, Antitrust Balancing,
12 N.Y.U. J.L. & Bus. 369, 372 (2016). See generally
Nachbar at 24 (collecting sources). Board of Regents
provides an excellent example of how this Court
considers alternatives in antitrust cases and
demonstrates why a less restrictive alternatives test
is unworkable as a distinct step in the rule of reason.
In Board of Regents, the Court did consider
alternatives, but they were not less restrictive ones.
The Court did not conclude that the NCAA’s television
restraints served its productive objective more
restrictively than they might if structured differently;
it rejected the NCAA’s restraints – on their own terms
and not in comparison to some alternative form –
because they did not “produce[] any procompetitive
effects.” Board of Regents, 468 U.S. at 114 (emphasis
added). Because the television restrictions reduced
output rather than increased it, id. at 119, there was
no procompetitive justification for them at all.
In some parts of its analysis, Board of Regents
actually considered restraints more restrictive than
the television restraints at issue in the case. The
Court decried the NCAA television restraint as too
limited to achieve the end of competitive balancing:

13
The television plan is not even arguably
tailored to serve such an interest. It does
not regulate the amount of money that
any college may spend on its football
program, nor the way in which the
colleges may use the revenues that are
generated by their football programs,
whether derived from the sale of
television rights, the sale of tickets, or
the sale of concessions or program
advertising. … There is no evidence that
this restriction produces any greater
measure of equality throughout the
NCAA than would a restriction on
alumni donations, tuition rates, or any
other revenue-producing activity.
Id. at 119. It is hard to describe these alternatives as
“less restrictive” than a limit on the number of
televised games, the restriction at issue in the case.
The Court’s consideration of alternatives in
Board of Regents demonstrates why a less restrictive
alternatives test is unworkable within the rule of
reason. Is a restriction on the number of televised
games more or less restrictive than one on the amount
of donations that schools can receive (or use to support
their athletic programs)? It’s impossible to say.
The reason why it is generally impossible to
evaluate which of two restraints is more or less
restrictive is because they will frequently operate in
different markets. The alternative restraints
suggested in Board of Regents were likely less
restrictive in television markets because they did not
operate in television markets at all. They would have
operated in the markets that constitute and feed

14
football programs (from salaries for coaches to
amenities in training facilities and stadiums) or even
in markets for higher education generally (by
affecting the way tuition revenue might be used).
Because comparing between two restraints almost
always
means
measuring
and
comparing
“restrictiveness” in completely different markets,
doing so usually compares apples to oranges.
The problems inherent in cross-market analysis
prompted one judge to write a separate concurrence
below, questioning the use of cross-market analysis in
the Ninth Circuit’s step two (when the defendant has
the burden to show procompetitive justifications). In
re NCAA, 958 F.3d at 1269-71 (Smith, J., concurring).
Exactly the same problem exists in the Ninth Circuit’s
step three, when the plaintiff can raise less restrictive
alternatives. It is little wonder, then, that this Court
has never adopted a less restrictive alternatives test
as part of the rule of reason.
D.

Alternatives in the ancillary restraints
doctrine

The Court’s analysis in Board of Regents, which
emphasized not the availability of less restrictive
alternatives but rather whether the restraint
contributed
to
the
NCAA’s
procompetitive
justification, suggests that consideration of
alternatives is better understood not as a step in the
rule of reason itself but rather as part of the ancillary
restraints doctrine, which precedes rule of reason
analysis. See Board of Regents, 468 U.S. at 114
(describing ancillary restraints inquiry as a
“predicate” finding); Herbert Hovenkamp, The Rule of
Reason, 70 Fla. L. Rev. 81, 122, 140 (2018). That is

15
exactly how this Court viewed this portion of Board of
Regents in its most recent case addressing the
ancillary restraints doctrine: Texaco, Inc. v. Dagher,
547 U.S. 1, 7 (2006) (citing Board of Regents, 468 U.S.
at 113-15).
Although not a Supreme Court opinion, laterChief Justice Taft’s opinion in the United States v.
Addyston Pipe & Steel Co., 85 F. 271 (6th Cir. 1898),
aff’d Addyston Pipe & Steel Co. v. United States, 175
U.S. 211 (1899), is generally acknowledged to be
source of the ancillary restraints doctrine – the
requirement that restraints “ancillary” to a larger,
productive transaction be evaluated differently than
“naked”4 restraints, whose sole purpose is to limit
competition. See Broadcast Music, Inc. v. Columbia
Broadcasting System, Inc., 441 U.S. 1, 9, 20 (1979);
Robert H. Bork, The Antitrust Paradox: A Policy at
War with Itself 26-30 (1978). The ancillary restraints
doctrine effectively channels analysis of restraints.
Those that are “naked” are per se illegal, while those
that are ancillary receive rule of reason analysis. Polk
Brothers, Inc. v. Forest City Enterprises, Inc., 776 F.2d
185, 188-89 (7th Cir. 1985) (Easterbrook, J.) (“A court

4 The word “naked” does not appear in Addyston Pipe. The
concept of a “naked restraint” first appeared (in this Court) in
White Motor Co. v. United States, 372 U.S. 253, 263 (1963)
without citation to Addyston Pipe. The connection between
“naked” restraints and Addyston Pipe was first made by this
Court in United States v. Topco Associates, Inc., 405 U.S. 596,
608 (1972) in a parallel citation to the use of “naked” in White
Motor Co. Justice Stevens cemented the connection between
“naked,” “ancillary,” and Addyston Pipe in his dissent in Business
Electronics Corp. v. Sharp Electronics Corp., 485 U.S. 717, 736
(1988) (Stevens, J., dissenting).

16
must distinguish between ‘naked’ restraints … and
‘ancillary’ restraints, those that are part of a larger
endeavor whose success they promote. … Covenants
of this type are evaluated under the Rule of Reason as
ancillary restraints … .”). See also Areeda and
Hovenkamp ¶ 1501.5
Although advanced by scholars and some lower
courts as part of the rule of reason, consideration of
alternatives actually fits more comfortably with the
ancillary restraints inquiry than within the rule of
reason itself. The standard adopted by then-Judge
Taft applied for determining that a restraint is
ancillary is whether a restraint is “reasonably
necessary.” Addyston Pipe, 85 F. at 281. One reason
why a restraint might not be “necessary” to a
productive transaction is because there are other
ways (more restrictive or less restrictive) the
productive end could be better served. Nachbar at 7980. But the ancillary restraints doctrine does not
require anything like a comparison between the
restrictiveness of two restraints; it is a limited inquiry
into the connection between the restraint and some
productive justification. See id. at 88. If the defendant
establishes that the restraint is effective enough to be
“reasonably necessary,” the ancillary restraints
inquiry should end and analysis should proceed to the
rule of reason, as described in CDA.

5 In Dagher, this Court described restraints that are ancillary to
productive transactions as “valid,” suggesting they might be
legal in all cases. See Dagher, 547 U.S. at 7. In other cases
identifying a connection between a restraint and a productive
purpose, this Court has applied the rule of reason to the
restraint. See, e.g., Broadcast Music, 441 U.S. at 9, 24.

17
In NCAA, when the Court considered alternative
restraints, it denied any connection between the
restraint and the justification. Board of Regents, 468
U.S. at 114-15. If the NCAA’s restraints did not in fact
contribute to productive activity, they were not
ancillary to it and therefore were not subject to the
ancillary restraints doctrine. See Areeda and
Hovenkamp ¶ 1505a.
Despite the American Express dicta, this Court
has never adopted and applied a less restrictive
alternatives test and has previously rejected it in
Sylvania. This Court has considered alternatives in
the context of ancillary restraints analysis but not in
the kind of comparative analysis required by the rule
of reason. Examining how a less restrictive
alternatives test would work reveals why such a test
does not belong in either the rule of reason or the
ancillary restraints doctrine.
II.

The Ninth Circuit’s less restrictive
alternatives test results in misapplication
of both the rule of reason and the ancillary
restraints doctrine

The limitation of the consideration of alternatives
to ancillary restraints analysis is not merely a matter
of form. The categorical nature of the ancillary
restraints analysis – a binary determination between
“naked” and “ancillary” restraints – avoids the most
profound problems of allowing consideration of
alternatives in antitrust cases. Importing a less
restrictive alternatives test into the rule of reason has
the potential to collapse the ancillary restraints and
rule of reason questions, allowing parties to relitigate
the ancillary restraints question in the quantitative

18
language of balancing. Nachbar at 82. Inclusion of a
less restrictive alternatives test accentuates the
likelihood of error in both the rule of reason and the
ancillary restraints doctrine, an error demonstrated
by the opinions below.
A.

The less restrictive alternatives test
preempts rule of reason balancing,
potentially
condemning
business
practices that enhance competition

The Ninth Circuit’s three-step framework, with
its emphasis on less restrictive alternatives, poorly
accommodates the balancing at the heart of the rule
of reason. The district court did not cite CDA for its
balancing test but instead cited two cases of this Court
over twenty years older than CDA – National Society
of Professional Engineers v. United States, 435 U.S.
679, 692 (1978) and Continental T. V., Inc. v. GTE
Sylvania Inc., 433 U.S. 36, 49 (1977) – for a somewhat
different inquiry, respectively, about the “competitive
significance of the restraint” and whether a restraint
is “unreasonable.” In re NCAA, 375 F. Supp. 3d at
1096.6 The district court did acknowledge that, if a
case cannot be disposed of on the basis of the less
restrictive alternatives test, it should proceed to
balancing. Id. The court of appeals, in its recitation of
the rule of reason, did not acknowledge the possibility
of balancing at all. See In re NCAA, 958 F.3d at 1256.

6 The district court did cite a more recent case of this Court,
Leegin Creative Leather Products, Inc. v. PSKS, Inc., 551 U.S.
877, 885 (2007), but not for the substance of the rule of reason.
See In re NCAA, 375 F. Supp. 3d at 1108.

19
Whether or not the Ninth Circuit’s three-step
formulation would eventually permit balancing, what
is clear is that, if the plaintiff does show a less
restrictive alternative, defendants will not be offered
the opportunity to demonstrate that a challenged
restraint is, on balance, procompetitive. In re NCAA,
375 F. Supp. 3d at 1096, 1107-08. The result of the
preemptive and determinative nature of the less
restrictive alternatives test is that a restraint that
overall enhances competition rather than harms it
could result in antitrust liability, including treble
damages, just because it does not do so as well as some
other restraint proffered by the plaintiff. Alan Devlin,
Antitrust as Regulation, 49 San Diego L. Rev. 823, 826
(2012).
B.

The less restrictive alternatives test
replicates
and
exacerbates
the
problems of rule of reason balancing

Some have suggested that a less restrictive
alternatives test can be used to allow courts to avoid
the problems of balancing procompetitive and
anticompetitive effects. Areeda and Hovenkamp
¶ 1507d; Hemphill at 949. The district court, too,
considered the less restrictive alternatives test to be
superior to balancing. See In re NCAA, 375 F. Supp.
3d at 1108. That is a justification in tension with the
rule of reason itself, which requires exactly that kind
of balancing. See CDA, 526 U.S. at 782 (Breyer, J.,
concurring and dissenting) (“What are its likely
anticompetitive effects? … Are there offsetting
procompetitive justifications?”); id. at 791 (“The basic
question is whether this, or some other, theoretically
redeeming virtue in fact offsets the restrictions’
anticompetitive effects.”) (emphasis added).

20
But even if one thought this Court should move
away from the balancing that has characterized the
rule of reason for over 100 years, adopting a less
restrictive alternatives test would not be the way to
do it because a less restrictive alternatives test
replicates and exacerbates all the problems inherent
in balancing. Like rule of reason balancing, a less
restrictive alternatives test requires a comparison. On
its face, that comparison is simpler because it is
limited to comparing two anticompetitive effects –
that of the restraint vs. that of the proffered
alternative – rather than comparing anticompetitive
effects with procompetitive effects, as is required by
rule of reason balancing. Hemphill at 952;
Hovenkamp at 134. But the less restrictive
alternatives test doesn’t just compare the
anticompetitive effects of two restraints; it compares
the relative anticompetitive effects of two restraints –
the restrictiveness of the two restraints compared to
the relative procompetitive effects they provide.
Gabriel A. Feldman, Misuse of the Less Restrictive
Alternative Inquiry in Rule of Reason Analysis, 58 Am.
U.L. Rev. 561, 587 (2009); Hemphill at 930. Because
two different restraints can also produce different
procompetitive effects, the comparison between
alternative restraints re-introduces procompetitive
justifications into the analysis, resurrecting the
problems of rule of reason balancing more generally.
Nachbar at 69-70. Thus, one proponent describes the
less restrictive alternatives test as “balancing in
disguise.” Hemphill at 930.
The kinds of comparisons required to evaluate
which of two restraints is more restrictive exacerbate
problems of balancing because they frequently require
comparison between markets. See supra at 13-14;

21
Nachbar at 70-73. The problems of comparing effects
in different markets actually led Judge Smith to
concur in the opinion below, refusing to fully join the
majority because of its comparison between harms in
one market and benefits in another. In re NCAA, 958
F.3d at 1266 (Smith, J., concurring). That
disagreement, over the balancing of procompetitive
effects on the market for sports with anticompetitive
effects in the market for the athletes that participate
in them, id., is an important one for antitrust, see
Frank H. Easterbrook, The Limits of Antitrust,
63 Tex. L. Rev. 1, 13 (1984), but it is a question that is
inherent in, not resolved, by a less restrictive
alternatives test.
C.

The incremental and progressively
restrictive nature of the less restrictive
alternatives test sets an impossible
standard
of
reasonableness,
as
demonstrated by the remedy in this
case

Eschewing this Court’s cases on rule of reason
balancing, the district court emphasized whether the
NCAA’s restraints were “reasonable,” In re NCAA,
375 F. Supp. 3d at 1096, arguably conflating the
ancillary restraints and rule of reason questions.
If one were going to replace the distinct ancillary
restraints and rule of reason inquiries with some
other form of inquiry into the reasonableness of the
restraint, it wouldn’t be with a less restrictive
alternatives test, which is the strictest form of
“reasonableness” there is. Every restraint is irrational
at the margin. In constitutional law, legislation for
which there is no “rational basis” is struck as violative

22
of due process, a modern implementation of this
Court’s earlier cases requiring that legislation must
be “reasonable.” Thomas B. Nachbar, The Rationality
of Rational Basis Review, 102 Va. L. Rev. 1627, 1648
(2016). If this Court were to adopt anything
resembling a less restrictive alternatives test for
judging
whether
legislation
satisfies
the
constitutional reasonableness requirement, virtually
no legislation would survive the test. See Thomas B.
Nachbar, Rational Basis “Plus,” 32 Const. Comm. 449,
456 (2017). The same would be true of practically any
restraint. Because all restraints are somewhat overinclusive, antitrust plaintiffs will always be successful
if all they have to do is identify an alternative that is
less restrictive. Areeda and Hovenkamp ¶ 1913b (“A
skilled lawyer would have little difficulty imagining
possible less restrictive alternatives to most joint
arrangements.”).
Given the severity of a less restrictive
alternatives test, even proponents acknowledge that
there must be some leeway, or buffer, between the
challenged restraint and an alternative before the
existence of the alternative invalidates the challenged
restraint. See Areeda and Hovenkamp ¶ 1913b;
Hemphill at 962. But, although proponents
acknowledge the need for some gap between the
challenged restraint and the proffered alternative,
none have been able to consistently describe that gap.
In the opinion below, the court initially described
the question at its third step as whether “any
legitimate objectives can be achieved in a
substantially less restrictive manner.” In re NCAA,
958 F.3d at 1256. Later in the case, the court cited a
different standard: “Where ‘a restraint is patently and

23
inexplicably stricter than is necessary to accomplish
all of its procompetitive objectives, an antitrust court
can and should invalidate it and order it replaced with
[an LRA].’’’ Id. at 1260 (quoting County of Tuolumne
v. Sonora County. Hospital, 236 F.3d 1148, 1075 (9th
Cir. 2001)). Elsewhere the court described the test as
being that the alternative must be “virtually as
effective” and may be implemented “without
significantly increased cost.” Id. (quoting O’Bannon,
802 F.3d. at 1075). The court did not attempt to
reconcile these various articulations of the standard.7
Commentators have similarly struggled with the
question of how much less restrictive an alternative
must be. In the end, the Areeda and Hovenkamp
loose-leaf simply gives up on the problem, declaring
that “The situations are too various to permit hard
and fast rules.” Phillip E. Areeda & Herbert
Hovenkamp, Fundamentals of Antitrust Law § 15.03
(2020). But businesses and courts do not have that
luxury. Businesses must plan based on the rules, at
peril of treble damages, and courts must apply the
rules predictably.
The inability of either courts or commentators to
describe the size of the gap between a business
practice and the less restrictive alternative that
renders that business practice an antitrust violation –
or even how one might measure that gap – casts doubt
on whether the rule can be applied predictably. The
result is complete uncertainty over how less
restrictive a less restrictive alternative must be to

7 On the variety of formulations used in O’Bannon to describe
the test, see Nachbar at 72-73.

24
result in antitrust liability for defendants. Nachbar at
51-53.
The same failure of courts or commentators to
articulate a limit on the less restrictive alternatives
test has prompted some to decry it as a “leastrestrictive-alternative” standard. E.g., Michael A.
Carrier, The Real Rule of Reason: Bridging the
Disconnect, 1999 BYU L. Rev. 1265, 1337. After all,
the only case in which there is no less restrictive
alternative is if the defendant is employing the least
restrictive alternative. Devlin at 826. The Ninth
Circuit itself has explicitly rejected such a standard,
O’Bannon, 802 F.3d at 1075; as have other courts and
commentators. Thomas C. Arthur, A Workable Rule of
Reason: A Less Ambitious Antitrust Role for the
Federal Courts, 68 Antitrust L.J. 337, 353 (2000);
Nachbar at 62-63 (collecting sources). While a least
restrictive alternatives standard is acknowledged to
be indefensible as a matter of antitrust law or policy,
any rigorously applied less restrictive alternatives
test will necessarily devolve into a least restrictive
alternatives standard by virtue of the marginally
comparative nature of any analysis that asks if there
is a restraint “less” restrictive than the challenged
one.
The comparative nature of the test combined with
the kind of market evidence offered in antitrust cases
will necessarily drive courts to accept increasingly
fine-grained
differences
between
challenged
restraints and their alternatives. The district court’s
remedy in this case is a perfect example of the
problem. With regard to NCAA limits on the payment
of “cash graduation and academic” awards to studentathletes, the district court permitted the NCAA to

25
limit them to levels no lower than the current limits
on athletic awards, In re NCAA, 375 F. Supp. 3d . at
1087, which at the time of the litigation were set at
$5,600 per student per year. Id. at 1072, 1099.
Although the district court elsewhere explained that
the NCAA should be provided “‘ample latitude’ to
superintend college athletics, and [courts] may not
‘use antitrust law to make marginal adjustments to
broadly reasonable market restraints,’” id. at 1104
(quoting O’Bannon, 802 F.3d. at 1074-75), the court
nevertheless specified – to the dollar – the exact limits
on the NCAA’s discretion. The court essentially locked
in the current dollar amounts, leaving open the
possibility that they could go up, but not down, from
$5,600.
Such a precise limit raises the question of
whether an NCAA cap on cash awards of $5,599 is
“patently and inexplicably stricter than is necessary,”
In re NCAA, 958 F.3d at 1260, while a limit of $5,600
is not. Regardless of the phraseology, though, what is
clear is that any restraint whose anticompetitive
effect can be measured in dollars will require courts
applying a less restrictive alternatives test to
determine, in a similarly granular fashion, at what
point a restraint is no more restrictive than necessary.
If courts are rigorous in their analysis, courts will
inexorably reach the point of allowing only the least
restrictive alternative. That is an outcome the Ninth
Circuit itself has rejected, and yet it is the outcome
produced in this very case. One wonders when the
plaintiffs will return with a new economic study
showing that a $1,000 (or $1) increase to the current
limits would not change consumer perception,
rendering the current $5,600 limits an antitrust
violation and subject to treble damages.

26
The margin is the point at which information
about competitive effects is cloudiest, but that is
exactly where the less restrictive alternatives test
focuses all attention. The ancillary restraints
doctrine, by requiring the defendant to explain the
connection between a restraint and a productive
transaction, Nachbar at 88-94, without scrutinizing
the marginal restrictiveness of a restraint like the less
restrictive alternatives test does, permits courts to
consider alternatives in a rational way without
collapsing into a freeform inquiry by courts into the
wisdom of a restraint. It is through the ancillary
restraints doctrine, not the rule of reason, that courts
should consider alternatives, as this Court did in
Board of Regents.
D.

The less restrictive alternatives test
transforms courts into regulators and
chills innovation

The specificity of the district court’s remedy
virtually guarantees that there will be future
challenges testing the continued validity of the
NCAA’s limits, both in kind and in size. That actually
happened in this case, with NCAA changes allowing
increased compensation being accepted by the district
court as evidence that consumer perceptions of
amateurism accommodate exactly such increases. In
re NCAA, 375 F. Supp. 3d at 1106. That finding not
only applied to types of compensation but even a
specific amount: $5,600 per student per year. Id. The
district court, having put itself in the position of
identifying not only the validity of the NCAA’s
justification but also the exact dollar amount that the
NCAA’s justification permits, and having recognized

27
that both can change over time, has essentially put
itself in the position as a NCAA’s price regulator.
The court’s supervision of the NCAA is not
limited to these specific $5,600 cash payments; it will
be general and down to the dollar. As the court of
appeals acknowledged, this case is a follow-on to
O’Bannon,
which
challenged
the
NCAA’s
compensation rules for the use of students’ names,
images, and likenesses. In re NCAA, 958 F.3d at 1247.
In the present case, the plaintiffs expanded their
challenge from the specific limits on compensation in
O’Bannon to “dismantle the NCAA’s entire
compensation framework,” id., on largely the same
grounds. The court of appeals correctly refused to
apply res judicata based on O’Bannon, id. at 1253-56,
but in so doing acknowledged that every new
challenge to the NCAA’s compensation rules will
justify fresh judicial inquiry, including not just their
justification but their level, since a higher limit will
be a new, less restrictive alternative, as the $5,600
limit was here.
That kind of judicial regulatory tinkering has
actually happened in this very case, before this appeal
could even be resolved. After the court of appeals
decision, a dispute arose between the parties over the
exact level of the cash compensation limits. The
parties returned to the district court, which set a new,
higher floor ($5,980) based on new evidence. See Order
Granting Motion for Clarification of Injunction, In re

28
NCAA, No. 14-md-02541 (N.D. Cal. Dec. 30, 2020),
ECF No. 1329.8
This Court has rejected the use of antitrust courts
as regulatory overseers. See Verizon Communications,
Inc. v. Law Offices of Curtis V. Trinko, LLP, 540 U.S.
398, 408 (2004). The court of appeals itself
acknowledged this tension, In re NCAA, 958 F.3d at
1262, but concluded that, because the compensation
limits had not originated with the district court, the
Trinko concern over courts as regulators was
inapplicable. Id. But it’s not the choice of a particular
price level but rather the nature of less restrictive
alternatives analysis, which invites continuous reevaluation of practices to determine if they are still
“less restrictive,” that converts an antitrust court into
the kind of persistent market regulator disapproved
of by this Court in Trinko. See Devlin at 828
(“Literally applied, the [less restrictive alternatives]
rule would eliminate the distinction between antitrust
and regulation.”).
The exacting, specific, and changing (with both
market conditions and technology) nature of less
restrictive alternatives analysis will chill innovation,
both for antitrust defendants and firms wary of
potential antitrust liability. For instance, in the
8 The district court offered a confusing “clarification” that the
NCAA could lower the cap without returning to the court for
permission so long as it also lowers athletic participation award
levels. Id. at 6. But that clarification is at odds with the district
court’s own reasoning, which is that the $5,600 (now $5,980)
compensation limit is consistent with the NCAA’s amateurism
justification. In re NCAA, 375 F. Supp. 3d at 1088. If the NCAA
can preserve amateurism with a $5,980 floor, then anything
lower would be more restrictive than necessary to do so.

29
present case, the NCAA is permitted to change
compensation limits, but only in one direction, in favor
of higher but not lower compensation. Any attempt by
the NCAA to redefine its product – the amateurism
recognized by the district court – by lowering
compensation limits will require return to the district
court in order to acquire permission to do so. In re
NCAA, 375 F. Supp. 3d at 1110 (retaining
jurisdiction).
The chilling effect of the less restrictive
alternatives test extends beyond antitrust defendants
to potential antitrust defendants. Devlin at 870. See
Nachbar at 55-61. In this case, it was the NCAA’s own
relaxation of the compensation limits that were the
less restrictive alternative relied upon by the district
court. In re NCAA, 375 F. Supp. 3d at 1082. Potential
antitrust defendants, wary that their own
experimentation with relaxed restrictions will be used
against them as court-enforced, one-way less
restrictive alternatives, will be deterred from
experimentation.
Increased scrutiny might be appropriate for a
horizontal entity with market power, such as the
NCAA, see id. at 1070, but the less restrictive
alternatives test is not sensitive to the NCAA’s
composition, size, or market power, as a more
comprehensive rule of reason analysis would be. See
CDA, 526 U.S. at 782 (Breyer, J., concurring and
dissenting) (“Do the parties have sufficient market
power to make a difference?”). The less restrictive
alternatives test, as described by the court of appeals,
applies to antitrust defendants and restraints of all
kinds, large and small, horizontal and vertical.
Indeed, under Ninth Circuit precedent, the test would

30
apply not only in concerted action cases under
15 U.S.C. § 1 but also in cases against single firms
under 15 U.S.C. § 2. See FTC v. Qualcomm, Inc., 969
F.3d 974, 991 (9th Cir. 2020). Because the less
restrictive alternatives test takes as a baseline the
defendant’s current business practices, defendants of
all kinds will not only be hesitant to relax restrictions,
they will be hesitant to innovate in any way that
might be seen as increasing restrictions (such as
through vertical intra-brand restrictions that
facilitate market entry, as in Leegin and Sylvania).
And, of course, once such restrictions are held to
violate the antitrust laws because there are less
restrictive alternatives available, other defendants
will feel similarly chilled. Easterbrook at 15-16.
E.

The less restrictive alternatives test
causes errors in ancillary restraints
analysis

The kind of “marginal restrictiveness” analysis
invited by the Ninth Circuit’s less restrictive
alternatives test goes beyond the problem of secondguessing by courts; it invites other errors in antitrust
analysis. For instance, the court below rejected the
NCAA’s limits on non-educational benefits because it
found that they had no procompetitive effect. In re
NCAA, 958 F.3d at 1258. But the court nevertheless
allowed identical restraints to be imposed by the
individual conferences. Id. at 1260. Why the
conferences? It is true that allowing the restraint at
the conference level is “less restrictive” than having it
at the national level, but the court found that the
restraint had no procompetitive effect. Id. at 1258
(finding “no such concrete procompetitive effect”). If
there is no procompetitive justification at the national

31
level, there is also no procompetitive justification at
the conference level – if anything, there is less
justification at the conference level because restraints
at that level are unlikely to affect consumer
perception of collegiate athletics. Being distracted by
conference-level
restraints’
marginally
less
anticompetitive effect, the court missed that, under
the district court finding, those restraints were
equally unjustifiable as unconnected to the NCAA’s
procompetitive justification. The court’s willingness to
allow a justification rejected at the national level to
support an identical restraint at the conference level
is a perfect example of the kind of incrementalist error
(this time in favor of permitting restraints rather than
striking them) invited by a less restrictive
alternatives test.
In this way, the lower courts’ inclusion of less
restrictive alternatives test distracted them from the
inquiry required by the ancillary restraints doctrine:
whether the restraints are actually “reasonably
necessary” to the procompetitive justification.
The use of a less restrictive alternatives test in
antitrust analysis sets an increasingly impossible bar
for antitrust defendants, effectively turns courts into
antitrust regulators, chills innovation, and introduces
additional opportunity for error. Given the problems
inherent in a less restrictive alternatives test, it is
little surprise that this Court has not adopted such a
test within its antitrust jurisprudence. It should
refuse to do so in this case.

32
CONCLUSION
The judgment of the court of appeals should be
reversed.
Respectfully submitted.
THOMAS B. NACHBAR
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
580 Massie Road
Charlottesville, VA 22903
(434) 924-7588
tnachbar@law.virginia.edu

February 2021

